CERTIFICATE OF SERVICE
NO. 19-970
Retail Ready Career Center, Inc.
Petitioner(s)
v.
United States
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
VETERANS OF THE ARMED FORCES OF THE UNITED STATES OF AMERICA AMICUS AT PETITION STAGE
IN SUPPORT OF NEITHER PARTY, by shipping three (3) true and correct copies of the same by Fedex 2
Day service, postage prepaid for delivery to the following addresses: :
Jack George Breffney Ternan Jr.
Ternan Law Firm, PLLC
1400 Preston Road, Suite 400
Plano, TX 75093
(972) 905-9040
jt@ternanlawfirm.com
Counsel for Retail Ready Career Center, Inc.

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for United States of America

Lucas DeDeus

March 4, 2020
SCP Tracking: Davis-901 Main Street, Suite 5200-Cover Cream

